OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/ANGOLA’S
OPERATING EXPENSES
AUDIT REPORT NO. 4-654-06-001-P
OCTOBER 20, 2005




PRETORIA, SOUTH AFRICA
Office of Inspector General


October 20, 2005

MEMORANDUM

TO:                  USAID/Angola Director, Diana Swain
                     USAID/South Africa Director, Carleene Dei

FROM:                Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:             Audit of USAID/Angola’s Operating Expenses (Report No. 4-654-06-001-P)

This memorandum transmits our final report on the subject audit. In finalizing our report, we
considered your comments on our draft report and have included your response in its entirety in
Appendix II.

This report includes eight recommendations that USAID/Angola: (1) notify the Deputy Chief
Financial Officer that an administrative funds control violation occurred; (2) deobligate $17,412
of the $22,462 of unliquidated balances set forth in this report that are no longer needed, (3)
complete a review of fiscal years 2003 and 2004 miscellaneous obligations totaling $81,585 and
deobligate the balances that are no longer necessary, (4) establish procedures to strengthen
the control system for performing and documenting unliquidated obligation reviews; (5) establish
control procedures for storing and handling property, (6) establish procedures that require an
annual physical inventory and reconciliation and schedule a physical inventory and
reconciliation, (7) officially designate two property officers, and (8) complete the required report
for the unaccounted for property in this report. In your written comments, you did not fully
concur with Recommendation No. 1, but concurred with Recommendation Nos. 2 through 8.

In response to our draft report, USAID/Angola did not fully concur with Recommendation No. 1
and no management decision has been reached at this time. We have consequently revised
Recommendation No. 1, and request written notice within 30 days of any additional information
related to actions planned or taken to implement Recommendation No. 1.                   For
Recommendation Nos. 2, 3 and 7, USAID/Angola has provided evidence that final action has
been taken, including deobligations of $22,462 and $40,756 for Recommendation Nos. 2 and 3,
respectively. We therefore consider Recommendation Nos. 2, 3, and 7 to be closed with the
issuance of this report. For Recommendation Nos. 4, 5, 6 and 8, USAID/Angola has provided
corrective action plans and target completion dates. Therefore, we consider that management
decisions have been reached for these recommendations. Please provide the Bureau for
Management, Office of Management Planning and Innovation with evidence of final action in
order to close those recommendations.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.

U.S. Agency for International Development
100 Totius Street
Groenkloof Xr
Pretoria 0181, South Africa
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Findings ................................................................................................................. 3

Has USAID/Angola managed its operating expenses in
accordance with USAID and Federal regulations? ........................................................... 3

     Forward Funding Controls Need
     Improvement ............................................................................................................... 3

     Review of Unliquidated Obligations
     Needs Improvement.................................................................................................... 4

     Property Management Needs
     Improvement ............................................................................................................... 6

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 12

Appendix III – Unliquidated Obligations ..................................................................... 15

Appendix IV – Unaccounted For Non-expendable Property ..................................... 16
SUMMARY OF RESULTS
This audit was performed by the Regional Inspector General/Pretoria as part of its
annual audit plan. The objective of the audit was to determine whether USAID/Angola
managed its operating expenses in accordance with USAID and Federal regulations. (See
page 2.)

As a result of our audit, we concluded that USAID/Angola has managed its operating
expenses in accordance with USAID and Federal regulations. The Mission has recorded
its obligations and expenditures accurately and in a timely manner, as well as reviewed and
reported on year-end balances. The purposes of the obligations were generally consistent
with the purposes of the relevant appropriations act. Accountable property purchases were
accurately recorded, property was received as ordered, and accurately recorded in the
inventory system. Additionally, inventory records were kept for property issued to the end
users, as well as records for disposal of property. (See page 3.)

Nevertheless, this report includes recommendations that will help USAID/Angola
strengthen certain areas associated with operating expenses. Those recommendations
are that USAID/Angola: (1) notify the Deputy Chief Financial Officer that an administrative
funds control violation occurred; (2) deobligate $17,412 of the $22,462 of unliquidated
balances set forth in this report that are no longer needed, (3) complete a review of fiscal
years 2003 and 2004 miscellaneous obligations totaling $81,585 and deobligate the
balances that are no longer necessary, (4) establish procedures to strengthen the
control system for performing and documenting unliquidated obligation reviews; (5)
establish control procedures for storing and handling property, (6) establish procedures
that require an annual physical inventory and reconciliation, as well as the retention of
documentation, and schedule a physical inventory and reconciliation, (7) officially
designate a Property Management Officer and Property Disposal Officer, and (8)
complete the required report for the unaccounted for property in this audit and take the
required action. (See pages 4, 6 and 9.)

USAID/Angola did not fully concur with Recommendation No. 1 and no management
decision has been reached at this time.             We have consequently revised
Recommendation No. 1, and request written notice within 30 days of any additional
information related to actions planned or taken to implement Recommendation No. 1.
For Recommendation Nos. 2, 3 and 7, USAID/Angola has provided evidence that final
action has been taken by, respectively, deobligating $22,462 in unliquidated balances,
deobligating $40,756 of $81,585 in miscellaneous obligations, and designating the
recommended property officers. We therefore consider these recommendations closed
with the issuance of this report. For Recommendation Nos. 4, 5, 6 and 8, USAID/Angola
concurred with the recommendations and has provided corrective actions plans and
target completion dates. Therefore, we consider that management decisions have been
reached for these recommendations. See page 10 for our evaluation of management
comments.




                                                                                          1
BACKGROUND
The U. S. Agency for International Development (USAID) receives a separate
appropriation to cover its annual operating expenses (OE). Operating expenses
represent salaries, benefits, and support costs of all U. S. personnel and non-program
foreign national personnel. Support costs include allowances, travel, transportation,
housing, and office expenses. Although USAID/Angola received some services from the
International Cooperative Administrative Support Services (ICASS) system, the
responsibility for most maintenance expenses and management of accountable
expendable and non-expendable property was retained by the Mission.

Financial management of OE consists of recording and reporting obligations and
expenditures that are consistent with the intended purposes of the OE appropriation act,
as well as conducting an annual review and certification of remaining unliquidated
obligation balances. Property management of OE is mainly comprised of purchasing,
receiving, inventorying, warehousing, issuing, and safeguarding expendable and non-
expendable office and residential property in accordance with USAID and Federal
guidance. It also includes the disposal of property when required.

The Controller at USAID/South Africa also functions as the Controller for USAID/Angola,
while the Executive Officer at USAID/South Africa provides unofficial guidance.
USAID/Angola’s accounting system is also resident at USAID/South Africa.

The audit period included OE funding from fiscal year 2002 through 2005. For fiscal
years 2004 and 2005, USAID/Angola reported total annual authorized OE appropriation
funds of $2.1 million for each year.


AUDIT OBJECTIVE
As a revision to the Office of Inspector General’s fiscal year 2005 annual audit plan, this
audit was conducted to answer the following question:

     •   Has USAID/Angola managed its operating expenses in accordance with USAID
         and Federal regulations?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         2
AUDIT FINDINGS
USAID/Angola has managed its operating expenses in accordance with USAID and
Federal regulations. It has recorded its obligations and expenditures accurately and in a
timely manner, as well as reviewed and reported on year-end balances. The purposes of
the obligations were generally consistent with the purposes of the relevant Operating
Expense (OE) appropriations act. Accountable property purchases were accurately
recorded, property was received as ordered, and property was accurately recorded in the
inventory system. Inventory records were also kept for property warehoused as well as
issued to the end users, in addition to records maintained for the disposal of property.

However, we found three instances of noncompliance with USAID and Federal
regulations. We determined that an administrative funds control violation occurred,
controls over unliquidated obligations needed improvement, and controls over property
management needed improvement. These issues are discussed below.


Forward Funding Controls
Need Improvement

 Summary: For fiscal year 2003, USAID/Angola paid three months of office rent
 totaling $99,000 using fiscal year 2002 OE appropriation, contrary to USAID and
 Federal guidance. Mission officials stated that they were concerned about the
 availability of OE funds in the next year when the next rental payment was due and
 wanted to use available fiscal year 2002 funds instead. Consequently, an
 administrative funds control violation occurred, contrary to appropriations law.

 For fiscal year 2003, USAID/Angola paid three months of office rent under lease
agreement LE 654-99-004 totaling $99,000 using fiscal year 2002 OE appropriation,
contrary to USAID and Federal guidance.

The lease for the Mission office building was required to be paid 12 months in advance
at the beginning of each annual rental period, which ran from January 1 to December 31
of each year. To pay for the annual period during fiscal year 2002, USAID/Angola paid
the one-year lease period through December 31, 2002 with fiscal year 2002 funds just
prior to January 2002 in accordance with the lease terms. Although three months of this
period ran into fiscal year 2003, the payment was consistent with USAID guidance
because the rental payment was due at the beginning of the 12 month period.

However, in September 2002, USAID/Angola made another office rental payment for the
period of January 1 to March 31, 2003 using fiscal year 2002 funds under Voucher No.
654-02-218 dated September 23, 2002. Since the annual 12 month lease period had
already been paid in fiscal year 2002, and the next period did not begin and was not due
until January 1, 2003, there existed no bona fide need for this payment in fiscal year
2002. In the absence of a bona fide need, the payment from 2002 funds for the
additional three months, therefore, was contrary to USAID and Federal guidance.




                                                                                       3
Automated Directives System (ADS) 621.3.2 states that a valid obligation is required to
fill a bona fide need in the period of availability of the appropriation used. The
Government Accountability Office’s (GAO) “Principles of Federal Appropriations Law”
defines the bona fide needs rule. It states that a fiscal year appropriation may be
obligated only to meet a legitimate, or bona fide, need arising in, or in some cases
arising prior to but continuing to exist in, the fiscal year for which the appropriation was
made. It further states that an appropriation may not be used for the needs of some time
period subsequent to the expiration of its period of availability. In summary, an
appropriation for a given fiscal year is not available for the needs of a future fiscal year.

ADS 621.3.8 states that non-program obligations must be consistent with Agency
forward funding guidelines. ADS 603.5.1g states that obligations may be made for rental
of space on a monthly, quarterly, or annual basis depending on when payments are due.
Obligations for periods beyond September 30th may be made only if the payment of rent
for such periods is required on or before September 30th under the lease.

Mission officials stated that they were concerned about the availability of OE funds when
the next rental payment was due and wanted to use available fiscal year 2002 funds
instead. They also believed that as long as the payment was made before the end of
fiscal year, those funds could be used for the next rental period due on January 1, 2003.

The result of the additional lease payment was that OE funds, which were intended
under appropriations law to be used in one fiscal year, were used to supplement a
succeeding fiscal year appropriation. Consequently, USAID/Angola’s operating expense
appropriation was not used in accordance with USAID guidance and appropriations law
and, therefore, contrary to the intent of Congress. Additionally, the Mission’s reported
annual OE funds were not accurately stated, with lease expenses for fiscal year 2002
overstated and fiscal year 2003 understated. This constitutes an administrative funds
control violation as defined by ADS 634.3.5, which requires a notification be sent to the
Deputy Chief Financial Officer.

To address this administrative funds control violation, we have the following
recommendation.

   Recommendation No. 1: We recommend that USAID/Angola notify the Deputy
   Chief Financial Officer, as required by the Automated Directives System, that an
   administrative funds control violation has occurred.


Review of Unliquidated
Obligations Needs Improvement

  Summary: USAID/Angola has not been performing and documenting unliquidated
  obligation reviews for its OE obligations as required by USAID guidance. As a
  result, unliquidated balances that were no longer needed were not deobligated.
  Mission officials stated that the unliquidated balances were not deobligated
  because they were concerned about the availability of OE fund balances to cover
  outstanding expenditures.      Staffing constraints were also cited by Mission
  personnel. Consequently OE funds that were no longer necessary were not
  identified and deobligated so that they could be made available for other uses.


                                                                                           4
USAID/Angola has not been performing and documenting unliquidated obligation
reviews for its operating expense obligations as required by USAID guidance. We
determined that fiscal year 2003 and 2004 documents totaling $22,462 (in Table I of
Appendix III) had unliquidated balances of $17,412 that were no longer needed and
should be deobligated.

In addition, USAID/Angola used a series of miscellaneous obligation documents to pay
local vendors for recurring expenses during fiscal years 2003 and 2004. These
documents, totaling $81,585, are provided in Table II of Appendix III. These
disbursements were made through the U.S. Embassy controller’s office, and processed
by the Charleston Financial Services Center, which would then generate an AOC or
IPAC1 that would be sent to USAID/South Africa (USAID/Angola’s accounting station) for
processing in the Mission Accounting and Control System (MACS). Although this
procedure can be lengthy under normal circumstances, if miscoded, an AOC may be
further delayed.

USAID/Angola staff stated that the current unliquidated balances for its miscellaneous
obligations were being maintained to cover outstanding AOCs from the Charleston
Financial Services Center. However, Mission staff stated that they had not identified nor
quantified the amounts that were needed for the outstanding AOCs. Therefore, it was
not known whether the balances were actually necessary at the time. To determine
whether the balances are no longer needed, and should be deobligated, the obligations
should be reviewed and the outstanding AOCs quantified.

ADS 621.3.1 states that financial documentation is any documentation that impacts on
or results in financial activity. It is not limited to documentation within the controller’s
office, but includes any source material causing or resulting in a financial transaction. If
an action will result in a financial transaction, it must be documented. Source
documentation, which must be readily available for audit, is necessary to support the
controller’s certification of balances at the end of each fiscal year.

ADS 621.2.e continues by stating that mission controllers must coordinate at least
annually a mission-wide review of all unexpended obligations to identify excess and
unneeded balances for potential deobligation. For OE-funded obligations, USAID’s
Deobligation Guidebook, Section V.C.3, states that the Cognizant Technical Officer
(CTO) or other obligation manager, in conjunction with the financial analyst or
responsible accountant, will perform a comprehensive review of all obligating documents
to ensure that all payments for goods and/or services received have been made and
posted to MACS. The responsible accountant will deobligate any residual with a journal
voucher cleared by the CTO or requiring officer and approved by the controller. The
Guidebook, Section V.C.3, further states that, for residual funds in old obligations that
are no longer needed for their original purposes, the mission controller’s office exercises
judgment to deobligate funds.

Mission officials stated that the unliquidated balances were not deobligated because
they were concerned about the availability of operating funds to cover outstanding AOCs

1
  An AOC is defined as an Advice of Charge, which is a notification of a payment made in
USAID/W or a mission accounting station on behalf of another accounting station. An IPAC is
defined as an Intra-governmental Payment and Collection, which is similar and can be made by
another government agency on behalf of a mission accounting station.


                                                                                          5
that had not been processed. Staffing constraints were also cited by Mission personnel.
With an accounting staff of only two local voucher examiners, one of which had to
perform cashiering duties, and a chief accountant, Mission personnel stated that they did
not have time to research and document outstanding miscellaneous obligation balances.

A contributing cause was a lack of a comprehensive control system to record and track
each disbursement for miscellaneous obligations for which an AOC is outstanding.
Recently, however, USAID/Angola has established a comprehensive system to
accomplish this. We believe that this system is adequate to provide Mission staff with
the controls necessary for conducting reviews of current unliquidated obligations. For
this reason, we are not making a recommendation at this time for the establishment of
additional controls for tracking disbursements. However, USAID/Angola still needs to
review prior year balances and deobligate balances that are no longer needed as well as
strengthen procedures for conducting and documenting unliquidated obligation reviews.

Since USAID/Angola did not maintain required documentation to support unliquidated
miscellaneous obligation balances in fiscal years 2003 and 2004, the required support
for the annual certification was not maintained. Additionally, OE obligations that were no
longer needed were not identified and deobligated so that they could be made available
for other uses.

To correct the weakness in the system for reviewing unliquidated obligations, we have
the following recommendations.

   Recommendation No. 2: We recommend that USAID/Angola deobligate $17,412
   of unliquidated balances totaling $22,462 set forth in this report that are no longer
   needed.

   Recommendation No. 3: We recommend that USAID/Angola complete a review
   of fiscal years 2003 and 2004 miscellaneous obligations totaling $81,585 and
   deobligate the balances that are no longer necessary.

   Recommendation No. 4:          We recommend that USAID/Angola establish
   procedures to strengthen the control system for performing and documenting
   unliquidated obligation reviews.


Property Management
Needs Improvement

 Summary: There were four instances of non-compliance with USAID/Angola’s
 property management system. Ten cell phones and four security radios were
 unaccounted for, annual physical inventories and reconciliations were not completed,
 expendable items were not inventoried prior to issuance, and a property disposal
 officer and a property management officer were not designated. For various reasons,
 USAID/Angola did not comply with USAID regulations or the Mission’s property
 management system. As a result, the required accountability was not maintained,
 thereby increasing the vulnerability for theft and misuse of Mission property.




                                                                                           6
Unaccounted For Non-expendable Property – We conducted a physical inventory that
identified 14 items totaling $6,312 that were unaccounted for. Specifically, we
determined that 10 cell phones were missing out of a universe of 48, and 4 security
radios were missing out of a universe of 83, as provided in Table III in Appendix IV.

Concerning the missing cell phones, Mission staff provided a number of explanations.
For bar codes 4009 and 4010, Mission staff believed that these were assigned to
program people and mistakenly recorded as OE inventory. However, no phones
matching the serial numbers in the inventory system were presented for inspection to
confirm this, nor were the phones in question recorded on the Cell Phone Users List.
For bar code 4032, Mission staff believed that this was an erroneous number, however
no documentation was provided. For bar code 3947, Mission staff believed that this
phone was assigned to a non-OE officer. However, no signed property receipt form was
on file, nor was the phone in question on the Cell Phone Users List. For bar code 3932,
Mission staff stated that this phone was lost. However, no documentation was provided
to support the report of the loss. For bar codes 3757 and 3756, phones with no bar code
were found that matched the serial numbers of the phones in the inventory system. For
bar codes 3483, and 3088, no explanation was provided. For bar code 2938, Mission
staff stated that the phone was stolen and reported to the Regional Security Officer, but
no supporting documentation for this was provided.

Regarding the missing radios, Mission staff believed the loss may have been due to an
initial inventory coding error, but could not produce any documentation for support.

Automated Directives System (ADS) 534.3.1 states that the regulations contained in 6
Foreign Affairs Manual (FAM) 220-229, Personal Property Management, are the
governing directives for USAID’s overseas personal property program. 6 FAM 221.4
states that inventory records must be kept for all accountable2 property.

According to 6 FAM 223.7, Warehousing and Storing Property, the property
management officer (PMO) shall establish conditions to provide for an efficient, secure,
and economical warehousing operation. Where it is necessary to store and warehouse
property, the PMO shall implement an efficient and economical warehousing program
with written procedures for handling and storing property.

6 FAM 226.5 further states that the accountable property officer (APO) must immediately
report missing, damaged, or destroyed property to the PMO. The PMO’s findings and
decisions based on the required report serve to relieve the APO of accountability for the
property and establish whether employees are personally, financially liable for damaged
and missing property. If it is determined that the damage resulted from carelessness,
negligence, or other fault of an employee, that employee may be required to pay the cost
of repairing or replacing the property.

The principal cause for the missing items was the lack of good written control
procedures governing the assignment of accountable property to employees and the

2
   Accountable property is defined as all non-expendable residential furniture and equipment
regardless of cost or location, and all non-expendable personal property items costing $100 or
more. Also included is any expendable stock inventory in the stock room or warehouse. The
term “non-expendable” is defined as furniture and equipment which is complete by itself and is of
a durable nature with an estimated life of over two years.


                                                                                               7
return of property from employees. Although the Mission did maintain a Cell Phone
Users List, it was not accurate or kept up to date. Additionally, the Mission did not have
consistent procedures and documentation for handling cases in which property assigned
to employees was lost, stolen or damaged. A contributory cause was the lack of annual
physical inventories and reconciliations, which would have assisted in identifying and
correcting weaknesses in property controls. This issue is further discussed below.

Currently there is no Mission order in place for property control. Although there is a draft
Mission order under consideration, it only provides for official titles for Mission officials
and does not contain specific control procedures for storing and handling accountable
property as required by Federal guidance.

The result of the above was that the required accountability for Mission property has not
been maintained, thereby increasing the vulnerability for theft and misuse of accountable
Mission property.

Lack of Physical Inventories and Reconciliations – USAID/Angola has not been
performing annual physical inventories and reconciliations. The last complete physical
inventory that was taken was in fiscal year 2004, at which time 310 line items were
reported missing. However, due to other priorities, no reconciliation was completed to
establish the reason for the reported missing items and report the results as required by
Federal guidance.

6 FAM 226.1 states that a physical inventory of personal property, including expendable
and non-expendable warehouse stock, shall be taken annually and immediately
reconciled with the property records. A physical inventory and reconciliation file must be
kept in the property office for three complete fiscal years.

Mission personnel stated that this physical inventory had been done very quickly due to
lost time as a result of an instruction cable from USAID/Washington that was misplaced
in the Embassy cable room. They believed that most of the reported missing items were
due to either a change in location of the items or due to the possibility of lost data as a
result of an inventory system upgrade that had been completed that year. However,
they had no documentation to support this. Additionally, the Mission did not have any
written local procedures for conducting physical inventories and reconciliations and
maintaining required documentation.

The lack of physical inventories and reconciliations resulted in inadequate accountability,
thereby increasing the vulnerability for theft and misuse of accountable Mission property.

Non-inventoried Expendable Property – In testing our sample of accountable property
items we noted that USAID/Angola did not inventory computer system expendable
property prior to issuance to the end user. The reported current value of these items at
the time of our fieldwork in fiscal year 2005 was $2,515.

According to 6 FAM 221.4, accountable property, which includes expendable inventory
in the stockroom, must be kept on accountable property records. Mission staff, however,
stated that they had no local procedures for inventorying expendable property prior to
issuance to the end user.




                                                                                           8
The lack of inventory records for this non-issued property resulted in reduced
accountability, thereby further increasing the vulnerability for theft and misuse of
accountable Mission property.

Undesignated Property Officers – In examining Mission controls over property
management, we noted that the draft Mission order designating responsibilities to
Mission personnel did not include two required positions. The draft Mission order under
consideration did not include a property management officer (PMO) and a property
disposal officer (PDO).

6 FAM 221 states that the PMO must be a U.S. citizen. It further states that the head of
each establishment abroad shall designate, in writing, an officer to serve as PMO. The
PMO is responsible for all property management functions. This includes assigning the
PDO duties to a U.S. citizen officer in writing. The PDO is generally responsible for the
duties of conducting the disposal of personal property.

Mission staff stated that they initially were not aware of these designation requirements,
although USAID/South Africa had recently advised them of the requirements.

The lack of designated property officers further reduced the level of accountability,
thereby adding increased vulnerability for theft and misuse of accountable Mission
property to the property management control system.

To address these weaknesses in property management, we have the following
recommendations.

   Recommendation No. 5: We recommend that USAID/Angola establish written
   control procedures for storing and handling property, which include inventorying
   expendable property before issuance, assigning accountable property to
   employees, returning accountable property to the Mission, and reporting and
   resolving cases for lost, stolen, or damaged accountable property in accordance
   with Federal requirements.

   Recommendation No. 6:          We recommend that USAID/Angola establish
   procedures that require an annual physical inventory and reconciliation, as well
   as the retention of documentation, and schedule a physical inventory and
   reconciliation in accordance with Federal requirements.

   Recommendation No. 7: We recommend that USAID/Angola officially designate
   a Property Management Officer and Property Disposal Officer.

   Recommendation No. 8: We recommend that USAID/Angola complete the
   required report for the unaccounted for property in this report and take the
   required action per 6 FAM 226.




                                                                                        9
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Angola concurred with all of our
recommendations except for Recommendation No. 1. The Mission described the
actions taken and those planned to be taken to address our concerns. The Mission’s
comments and our evaluation of those comments are summarized below.

In response to Recommendation No. 1, the Mission stated that it did not fully concur with
the finding. The Mission indicated its position that adequate controls were in place for
funds control and that the additional three months rent was charged to fiscal year 2002
as a result of a decision by the Regional Controller to modify the period of the office
lease. According to the Mission, this was a one-time occurrence and did not reflect a
pattern of misapplication of USAID guidance and appropriation’s law. Consequently, we
changed the finding to state that paying more than 12 months of rent from the fiscal year
2002 annual operating expense appropriation constituted an administrative funds control
violation and recommended that the Mission report the violation to the Deputy Chief
Financial Officer as required by the Automated Directives System. No management
decision has been reached on revised Recommendation No. 1. We have requested that
the Mission provide written notice within 30 days of additional information related to
actions planned or taken to implement Recommendation No. 1.

Concerning Recommendation Nos. 2, 3 and 7, the Mission provided evidence that final
action had been taken. For Recommendation No. 2, the Mission deobligated $22,462
that was no longer needed--$5,050 more than was recommended at the conclusion of
the audit fieldwork.   For Recommendation No. 3, the Mission completed the
recommended review of miscellaneous obligations totaling $81,585, and deobligated
$40,756 that was no longer needed. For Recommendation No. 7, the Mission issued
Mission Order 502-02-05 designating the recommended Property Management Officer
and Property Disposal Officer. Consequently, we consider final action to have been
taken on Recommendation Nos. 2, 3 and 7, and close them upon issuance of this report.

In addressing Recommendation Nos. 4, 5, 6 and 8, the Mission reported reaching
management decisions for each. For Recommendation No. 4, the Mission was
developing procedures in a mission order for performing and documenting unliquidated
obligation reviews that should be completed by December 31, 2005.                 For
Recommendation No. 5, Mission was developing procedures in a mission order for
property control that should also be completed by December 31, 2005.              For
Recommendation No. 6, the Mission was incorporating procedures into a mission order
for the completion of annual physical inventories and reconciliations. This should be
completed by December 31, 2005. For Recommendation No. 8, the Mission will
complete the required report for the unaccounted for property by December 31, 2005.
Therefore, we consider Recommendation Nos. 4, 5, 6 and 8 to have received a
management decision.




                                                                                      10
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Pretoria conducted this audit in accordance with
generally accepted government auditing standards. Fieldwork for this audit was
performed at the USAID Mission in Angola between June 27, 2005 and July 15, 2005.
For the review of Operating Expense (OE) funds control, we examined $382,000 of
unliquidated obligations out of a total reported of $410,000. For the review of property
management, we examined $198,000 of non-expendable property out a total reported of
$1,327,000.

For OE funds control, we examined significant internal controls associated with the
accuracy and appropriateness of the recording of obligations, the recording of
expenditures, and the reviewing and certifying of year end balances. For property
management, we examined significant controls associated with purchasing, receiving,
inventorying, storing, issuing and disposing of accountable property.

In conducting our fieldwork, we did not rely on the accuracy or validity of computer
generated data in the Mission Accounting and Control system or the data in the
Mission’s inventory system. Additionally, we found no significant prior audit findings
affecting the areas reviewed.

Methodology
To accomplish the audit objective, we interviewed cognizant officials, reviewed applicable
USAID and Federal policies and procedures, and assessed significant management
controls and risk exposure relating to the management of OE funds controls and
accountable property management.

The audit included an analysis of a judgmental sample of various types of original source
documents, which included miscellaneous obligating documents, contracts, purchase
orders, vouchers, and invoices to determine whether obligations were consistent with the
requirements of the OE appropriations act, unliquidated balances were still needed, funds
could be deobligated, and data in the accounting system was accurate. The sample was
designed so that we could analyze a variety of different types of transactions. The results,
however, cannot be projected to the population.

The audit also included an analysis of a judgmental sample of various types of property
purchases. We traced purchases through the property records system, which included
purchase documents, receiving reports, inventory reports, assignment documents, and
disposal documents where appropriate.

Because of the varied nature of the different types of balances tested under funds control
and property management, we were not able to establish a single materiality threshold.
However, since the Mission was responsible for approximately $2 million a year in OE
funding, the monetary impact of the findings in this report are not significant enough to
affect our positive answer to the audit objective.



                                                                                         11
                                                                              APPENDIX II



MANAGEMENT COMMENTS



MEMORANDUM

TO:            Regional Inspector General/Pretoria, Jay Rollins

CC:            Carlene Dei, Mission Director, USAID/South Africa

FROM:          Diana Swain, Mission Director, USAID/Angola /s/

SUBJECT:       Management Comments on Draft Audit Report on Audit of
               USAID/Angola Operating Expenses (Report No. 4-654-05-00X-P)

This memorandum transmits our management comments to the referenced RIG/Pretoria
Draft Audit Report. Thank you for sharing your draft with the Mission, and providing us
the opportunity to make clarifications at this time. We welcome the report and your
continuing guidance on how to improve management controls for our operating expense
budget, inventory, warehouse and other administrative systems. We have reviewed the
draft report with senior Mission staff and the Regional Controller of USAID/South Africa.
We provide here additional information to address the draft findings and some of the
report’s language. In addition we have compiled a number of management actions
which we believe fully address the RIG’s audit recommendations.

Recommendation No. 1: We recommend that USAID/Angola establish and
document controls over operating expenses to ensure that forward funding of
obligations is in compliance with USAID and Federal Guidance.

The Mission does not fully concur with this finding. It is mission management’s position
that adequate controls are in place to comply with USAID and Federal Guidance. We
believe the specific case which led to this recommendation was a one-time occurrence.
In the judgment of Mission management, including the Regional Controller, it does not
reflect a pattern of misapplication of USAID guidance and appropriations law.

A management decision was made in FY 2002 to fund 15 months of the rent and change
the annual lease period from the calendar year of January – December to an April –
March schedule, in order to shift the burden from the first quarter of the fiscal year. This
was a one-time change, to avoid restrictions from continuing budget resolutions at the
start of the fiscal year. Unfortunately, no subsequent action was actually taken to amend
the lease to formally change the lease payment period, and further documentation is not
available.

OE forward funding guidelines have since been amended, with recent changes to ADS


                                                                                         12
                                                                            APPENDIX III


603 and the PPC policy agency notice on August 19, 2004. In conclusion, Mission
management feels that this was a judgment call by the Regional Controller at the time
and that it was not the result of having inadequate controls in place.

Recommendation No. 2: We recommend that USAID/Angola deobligate the
unliquidated balances totaling $17,412 for the documents set forth in this report
that are no longer needed.

Mission management concurs with the audit finding. USAID/Angola has deobligated the
items in question, completing this management action by the end of FY05.

Recommendation No. 3: We recommend that USAID/Angola complete a review of
fiscal years 2003 and 2004 miscellaneous obligations totaling $81,585 and
deobligate the balances that are no longer necessary.

Mission management concurs with the audit finding. Mission management, as part of its
normal year-end closing process, performed this review and deobligated unnecessary
balances leaving an amount remaining to adequately cover unresolved reconciling items
associated with those fiscal years.

Recommendation No. 4: We recommend that USAID/Angola establish procedures
to strengthen the control system for performing and documenting unliquidated
obligation reviews.

Mission management concurs with the audit finding. Mission management will formally
establish a procedure requiring that unliquidated obligation reviews take place in
conjunction with the quarterly visits conducted by the Regional Controller. This
procedure will also require that the reviews be documented and that a file containing that
documentation be maintained at the mission. This procedure will be developed, written
into a Mission Order and in place by December 31, 2005.

Recommendation No. 5: We recommend that USAID/Angola establish written
control procedures for storing and handling property, which include inventorying
expendable property before issuance, assigning accountable property to
employees, returning accountable property to the Mission, and reporting and
resolving cases for lost, stolen, or damaged accountable property in accordance
with Federal requirements.

Mission management concurs with the audit finding. Mission management – supported
by the Executive Officers from USAID/South Africa and RCSA – will draft these
procedures into a new Mission Order. The anticipated completion date for this is
December 31, 2005.

Recommendation No. 6: We recommend that USAID/Angola establish procedures
that require an annual physical inventory and reconciliation, as well as the
retention of documentation, and schedule a physical inventory and reconciliation
in accordance with Federal requirements.

Mission management concurs with the audit recommendation. Mission management –
supported by the Executive Officers from USAID/South Africa and RCSA – will draft
these procedures into a new Mission Order. The anticipated completion date for this is


                                                                                        13
                                                                         APPENDIX III


December 31, 2005.

USAID/Angola does believe that the statement that it has not been performing physical
inventories and reconciliations may be a bit categorical. A more accurate statement
would be that while USAID/Angola has been performing physical inventories, they
cannot be considered complete as adequate reconciliations have not taken place.

Recommendation No. 7: We recommend that USAID/Angola officially designate a
Property Management Officer and Property Disposal Officer.

Mission management concurs with the audit recommendation. Mission Order 502-02-
05, issued on August 18, 2005, establishes that the Mission Program Officer is the
Property Management Officer and the Mission Director is the Property Disposal Officer.
We request that this finding be closed.

Recommendation No. 8: We recommend that USAID/Angola complete the required
report for the unaccounted for property in this report and take the required action
per 6 FAM 226.

Mission management concurs with the audit recommendation. Mission management –
supported by the Executive Officers from USAID/South Africa and RCSA – will complete
the required report by December 31, 2005.




                                                                                     14
                                                               APPENDIX III


                             Table I
                Unneeded Unliquidated Obligations

          Document No.                Balance       Not Needed
TA-654-02-088                            $8,205            $8,205
PO-654-O-00-03-00027                      2,644             2,644
PSC-654-S-00-03-00001                     1,791             1,000
TA-654-03-069                               607               607
TA-654-030070                               207               207
TA-654-03-090                               903               903
PO-654-O-00-04-00031                      2,057             2,057
PO-654-O-00-04-00035                      1,660               580
TA-654-04-094                               483               483
TA-654-04-096                               404               404
TA-654-04-098                             3,501               322
Total                                   $22,462           $17,412



                           Table II
          Unliquidated Obligations Needing Analysis

                   Document No.                 Balance
        MO-A3-Courier Services                     $1,501
        MO-A3-FSN Transport                         3,503
        MO-A3-Office Guards                         1,057
        MO-A3-Office Maintenance                    4,091
        MO-A3-Office Supplies                       3,067
        MO-A3-Office Supplies                       3,973
        MO-A3-Residence Supplies                    2,750
        MO-A3-Residence Utilities                   5,694
        MO-A3-Subscriptions & Pubs                    485
        MO-A3-Suspense                              1,784
        MO-A3-Vehicle Repairs                       4,470
        MO-A4-FSN Medical                           1,237
        MO-A4-Office Communication                    547
        MO-A4-Office Maintenance                      454
        MO-A4-Office Supplies                         671
        MO-A4-Residence Maintenance                   758
        MO-A4-Residence Utilities                     714
        MO-A4-Suspense                             44,829
        Total                                     $81,585




                                                                        15
                                                     APPENDIX IV




                    Table III
    Unaccounted For Non-expendable Property

        Item     Bar Code   Acquisition     Total
                              Price
Cell Phone           2938           $684      $684
Cell Phone           3088             540      540
Cell Phone           3483             500      500
Cell Phone           3756             500      500
Cell Phone           3757             500      500
Cell Phone           3932             450      450
Cell Phone           3947             480      480
Cell Phone           4032             300      300
Cell Phone           4009             300      300
Cell Phone           4010             300      300
Subtotal                                    $4,554
Security Radio       2691           $222     $222
Security Radio       2740            792       792
Security Radio       2966            440       440
Security Radio       3213            304       304
Subtotal                                    $1,758
Total                                       $6,312




                                                              16
U.S. Agency for International Development
         Office of Inspector General
         1300 Pennsylvania Ave, NW
           Washington, DC 20523
             Tel: (202) 712-1150
             Fax: (202) 216-3047
             www.usaid.gov/oig
